Department of Health and Human Services
                  OFFICE OF
             INSPECTOR GENERAL




 TRAILBLAZER MOSTLY CLAIMED
MEDICARE PART A ADMINISTRATIVE
  COSTS IN ACCORDANCE WITH
    FEDERAL REQUIREMENTS


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                  Patricia Wheeler
                                             Regional Inspector General

                                                    February 2013
                                                    A-06-10-00108
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                       INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act established the Medicare program. The Centers for
Medicare & Medicaid Services (CMS) administers the Medicare program through contractors,
including Medicare Part A fiscal intermediaries (FIs) that process and pay Medicare claims.
Contracts between CMS and the Medicare contractors (contractors) define the functions
performed by the contractors and provide for the reimbursement of allowable administrative
costs incurred in the processing of Medicare claims.

Following the close of each fiscal year (FY), contractors submit to CMS a Final Administrative
Cost Proposal (FACP) which reports the Medicare administrative costs incurred during the year.
The FACP and supporting data provide the basis for the CMS contracting officer and contractor
to negotiate a final settlement of allowable administrative costs. When claiming costs,
contractors must follow cost reimbursement principles contained in part 31 of the Federal
Acquisition Regulation (FAR) and other applicable criteria.

During the audit period, which covered October 1, 2004, through September 30, 2008, CMS
contracted with TrailBlazer Health Enterprises, LLC (TrailBlazer), to serve as a Part A FI for
Colorado, New Mexico, Oklahoma, Texas, and the Indian Health Service. TrailBlazer reported
Medicare administrative costs totaling $125,367,057.

TrailBlazer, headquartered in Dallas, Texas, is a wholly owned subsidiary of BlueCross
BlueShield of South Carolina (BlueCross). BlueCross provided certain management and other
operational support services for TrailBlazer, including accounting, human resources, legal, and
general corporate administration. For a portion of our audit period, Palmetto GBA, LLC, also a
wholly owned subsidiary of BlueCross, performed some of these services for TrailBlazer,
including Medicare cost accounting and financial reporting.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the administrative costs that TrailBlazer claimed on its
cost proposals were reasonable, allowable, and allocable in accordance with part 31 of the FAR
and the Medicare contract.

Scope

Our audit covered the period October 1, 2004, through September 30, 2008 (FYs 2005 through
2008). For this period, TrailBlazer reported administrative costs to CMS totaling $125,367,057.

In planning and performing this audit, we reviewed TrailBlazer’s internal controls for allocating
costs to cost objectives in accordance with the FAR and the Medicare contract. Our objective
did not require us to review TrailBlazer’s overall internal control structure. We limited our

                                                1
review to obtaining an understanding of TrailBlazer’s procedures for identifying and reporting
cost claims to CMS. We used the latest FACP that we were given for each year as the base for
the final settlement amount of allowable administrative costs.

Methodology

To accomplish our objective, we:

   •   reviewed applicable Medicare laws, regulations, and guidelines, including the FAR Part
       31 Contract Cost Principles and Procedures and the Medicare Financial Management
       Manual, chapters 1, 2, and 7;

   •   reconciled the FACPs from FYs 2005 through 2008 to TrailBlazer’s accounting records;

   •   performed analytical tests of TrailBlazer’s trial balances;

   •   selected and reviewed a judgmental sample of invoices, expense vouchers and reports,
       and journal entries;

   •   interviewed TrailBlazer officials about their cost accumulation processes for cost
       proposals and gained an understanding of their cost allocation systems;

   •   reviewed payroll journals, corporate bonus plans, and personnel records; and

   •   tested costs for allowability, allocability, and reasonableness.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                     RESULTS OF AUDIT

The administrative costs TrailBlazer reported on its FYs 2005 through 2008 FACPs were mostly
reasonable, allowable, and allocable and in compliance with the FAR and other applicable
requirements. However, TrailBlazer did not always report outside professional service
(subcontractor) costs in accordance with applicable criteria.

Pursuant to FAR part 31.205-46, costs incurred for lodging, meals, and incidental expenses are
reasonable and allowable only to the extent that they do not exceed the maximum per diem rates
in effect at the time of travel.

TrailBlazer claimed subcontractor travel charges on the FACP that were higher than the
approved per diem rates. However, the subcontractor travel charges in excess of per diem that
we reviewed were immaterial. In addition, TrailBlazer incorporated a new travel system in 2011

                                                 2
and began reviewing subcontractor travel charges to ensure that subcontractors adhered to per
diem rates. Consequently, this report contains no recommendations.




                                               3
